Audit of NARA’s Movement of Freight

       OIG Audit Report No. 11-01


           October 29, 2010
                                                                                          OIG Audit Report # 11-01


Table of Contents


Executive Summary ........................................................................................ 3

Background ..................................................................................................... 4

Objectives, Scope, Methodology .................................................................... 5

Audit Results ................................................................................................... 6

Appendix I – Federal Management Regulations ............................................ 9

Appendix II - Acronyms and Abbreviations................................................. 11

Appendix III - Management’s Response to the Report ................................ 12




                                                   Page 2
                                National Archives and Records Administration
                                                                         OIG Audit Report # 11-01


EXECUTIVE SUMMARY

The National Archives and Records Administration (NARA) Office of Inspector General (OIG)
completed a review of NARA’s Movement of Freight Shipments. The review was initiated as a
result of a fraud investigation performed by the OIG Office of Investigations. Specifically, in FY
2007, a Facilities and Personal Property Management Division (NAF) employee was indicted for
theft of government property and conspiracy to embezzle $958,280 from the United States. The
employee was responsible for large transportation procurements and often circumvented NARA
controls. The employee had authority to set up transportation service orders and approve invoices
for payments. The employee commonly used the same vendors over and over. Management
discarded other employee’s complaints about this employee not following NARA controls.

The objective of the audit was to determine if controls are effective and efficient to ensure that
NARA obtains the best value and most economical prices for the movement of freight.

Our review disclosed that NARA has taken several significant steps to improve controls since FY
2007. Controls over separation of duties were implemented. The person requesting freight
shipments is not the same person setting up the transportation order in General Services
Administration’s Transportation Management Services System and is also different from the person
authorized to approve freight invoices for payment. A NAF manager tracks all transportation
transactions from inception through payment, reviews invoices after U.S. Transportation
Consultants (USTC) audits the invoice and reviews transactions to ensure vendors are rotated.

NARA has been in the process of revising NARA 702, Freight and Shipping Services since June
2008. NARA is addressing concerns from program offices before implementing the policies and
procedures. Included in the revised NARA 702 are policies to prevent government purchase cards
from being used to pay for freight and shipping services. NAF is working with the Financial
Services Division to monitor government purchase card use for freight and shipping services. Also
included in the revised NARA 702 is a policy to conduct performance reviews and quality
inspections of services provided.

The results of our testing indicate the separation of controls over requesting freight and shipping
services, setting up the obligation and approving payment are working effectively. The
transactions tested were appropriately pre-audited by USTC before payment and reported to
GSA in the required quarterly reports. However, we could not come to the same conclusion in
our test work in determining whether NAF selected the Transportation Service Provider (TSP)
that provided the best value to the government. NAF is working to track reasons why TSP’s
with a lower price were not selected.

Since the investigation, NAF has implemented stronger controls over freight and shipping. We
believe NARA is on the right track in continuing to improve controls over transportation services.

We made 3 recommendations which, when implemented by management, will assist the agency
in enhancing controls in freight management.


                                             Page 3
                          National Archives and Records Administration
                                                                       OIG Audit Report # 11-01


BACKGROUND

In FY 2007 a NAF employee was indicted for theft of government property and conspiracy to
embezzle $958,280 from the United States. The person was responsible for large transportation
procurements and often circumvented National Archives and Records Administration (NARA)
controls. The person had authority to approve invoices for payments. The person commonly
used the same vendors over and over. Management discarded other employee’s complaints
about this person not following NARA controls. As a result of this investigation we initiated an
audit of freight shipments.

The Facilities and Personal Property Management Division (NAF) arranges for and oversees
freight shipments for all NARA units. NAF responds to program requests for freight shipments
and selects transportation service providers (TSPs) using General Services Administration’s
(GSA) Transportation Management Services Solution (TMSS). NARA has contracted with
USTC to audit freight bills prior to payment.

GSA provides regulations on transportation management, acquiring transportation services and
business rules to consider before shipping freight. GSA also provides regulations on
transportation payment and audit to assure that payment and payment mechanisms for agency
transportation services are uniform and appropriate. GSA offers freight transportation services
for civilian agencies. NARA uses GSA’s TMSS, an internet based system that provides:

   •   Comprehensive online freight and household goods transportation;
   •   First web based transportation system with an approved electronic bill of lading;
   •   Shipment booking online feature;
   •   Volume discounted negotiated government rates;
   •   Efficient transportation system that streamlines the transportation process; and
   •   Ease of use.

TMSS enables GSA customers to effectively and efficiently manage their transportation process.
TMSS provides access to GSA’s highly competitive transportation rates. GSA’s Standard
Tender of Services (STOS) establishes the rates, rules, and charges that transportation service
providers must follow in conducting business with Federal civilian agencies. Use of GSA’s
STOS relieves Federal agencies of any need to (a) conduct extensive research and analysis of
individual TSP tenders and tariffs to determine the most favorable charges, and (b) create, for an
individual agency’s/location’s use, a set of rates, rules and charges for transportation services.




                                            Page 4
                         National Archives and Records Administration
                                                                        OIG Audit Report # 11-01


OBJECTIVES, SCOPE, METHODOLOGY

The objective is to determine if controls are effective and efficient to ensure that NARA obtains
the best value and most economical prices for the movement of freight. To accomplish our
objective we:

   •    Reviewed relevant laws, regulations, contracts, and NARA guidance pertaining to the
        freight shipments;
   •    Held discussions with NARA staff to obtain an understanding of the freight shipment
        functions and controls;
   •    Reviewed pertinent documentation related to selected transactions to test the
        effectiveness of controls. For example, we reviewed the NARA log, related bills of
        lading, vouchers and invoices and invoice approval forms for a sample of freight
        shipments made between December 2008 and August 2009;
   •    Reviewed credit card data to determine if cardholders are paying for freight shipments
        using credit cards;
   •    Reviewed NARA’s prepayment plan to ensure compliance with GSA regulations; and
   •    Employed judgmental sampling.

The review was conducted at Archives II in College Park, MD and encompassed all NARA
programs. Our audit was performed from August 19, 2009 through August 11, 2010 and was
conducted in accordance with generally accepted government auditing standards. This audit was
delayed at times due to other priorities. These standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                            Page 5
                         National Archives and Records Administration
                                                                      OIG Audit Report # 11-01


AUDIT RESULTS

1. Current Policies and Procedures Have Not Been Implemented

Written policies and procedures have not been implemented since the investigation of an NAF
employee related to transportation transactions. NARA has been in the process of writing
NARA 702, Freight and Shipping Services since June 2008. NARA has not implemented these
procedures because the policies are still being vetted through NARA management. Policy and
Planning Staff (NPOL) and NAF are working on addressing concerns from Office of Presidential
Libraries (NL), Office of Records Services – Washington, DC (NW) and Office of Regional
Records Services (NR) before implementing the policies and procedures. Internal controls need
to be clearly documented and readily available in the form of management directives,
administrative policies or operating manuals. The policies and procedures are not effective when
they are only in draft form. NAF acknowledged many employees are using the draft guidance
however, in our opinion without approved policies and procedures employees have no basis for
consistent processing of transportation services and management has no means to effectively
monitor activity.

Included in the draft NARA 702 are policies to prevent government purchases cards from being
used to pay for freight and shipping services. However we found 10 instances between
November 2008 and May 2010 where transportation services were paid for by a government
credit card. As a result these 10 transactions were not controlled by NAF, were prepaid and not
audited by a third party before payment. NAF is working with Financial Services Division
(NAB) on developing a process to monitor government purchase card use for freight and
shipping services. NAF acknowledge these purchase card transaction and stated because the
policies were not implemented the policies could not be enforced.

Also included in the draft NARA 702 is a policy to conduct performance reviews and quality
inspections of services provided. However, specific standard operating procedures on NAF
reviews and quality inspections have not been developed. NAF officials stated that these will be
developed when the policies and procedures become effective.

Government Accountability Office (GAO) Standards of Internal Control require internal controls
to be clearly documented and readily available in the form of management directives,
administrative policies or operating manuals. GSA’s regulations, Federal Management
Regulation, subchapter D-Transportation, Part 102-117 and Part 102-118 provides guidance on
transportation management which is agency oversight of the physical movement of commodities
and other freight from one location to another by a transportation service provider and
establishes requirements for audits of agency transportation bills. Without current policies and
procedures employees have no basis for consistent processing of transportation services and
management has no effective means to monitor activity.




                                            Page 6
                         National Archives and Records Administration
                                                                      OIG Audit Report # 11-01


Recommendation 1

The Archivist should direct NPOL and NA to coordinate efforts to implement NARA 702,
Freight and Shipping Services policies and procedures.

Management Response(s)

“We concur with all three recommendations as stated and will create a detailed action plan
stating how we will satisfy them.”

Recommendation 2

The Assistant Archivist of Administration should direct NAF to draft standard Operating
Procedures (SOPs) to conduct performance reviews and quality inspections of services provided.
NAF SOPs should include procedures for tracking performance metrics and procedures for
putting TSPs in temporary nonuse, suspension or debarment for unsatisfactory performance as
described in Part 102-117 - Transportation Management.

Management Response(s)

“We concur with all three recommendations as stated and will create a detailed action plan
stating how we will satisfy them.”

2. Results of Tests of Controls – NARA is Unable to Demonstrate They are
   Selecting TSPs That Provide the Overall Best Value

Our review found NARA has taken several steps to improve controls since the investigation of a
NAF employee. Controls over separation of duties were implemented. However, we could not
come to the same conclusion in our test work in determining whether NAF selected the
Transportation Service Provider that provided the best value to the government. GSA requires
agencies to use the mode or individual transportation service provider that provides the overall
best value to the agency. In addition, agencies must consider cost and demonstrate no
preferential treatment to any TSP when arranging for transportation. There was no justification
for instances when TSPs with a lower cost were not selected. NAF staff often selects TSP’s
with proven satisfactory services but this factor is not mutually exclusive as NARA should still
consider other business rules in selecting a TSP that provides the overall best value to the
agency. See Appendix I for business rules to be considered.

Controls over separation of duties were implemented. The person requesting freight shipments
in not the same person setting up the transportation order in GSA’s Transportation Management
Services System and is also different from the person authorized to approve freight invoices for
payment. A NAF manager tracks all transportation transactions from inception through
payment, reviews invoices after USTC audits the invoice, and reviews transactions to ensure
vendors are spread out.



                                            Page 7
                         National Archives and Records Administration
                                                                        OIG Audit Report # 11-01


We reviewed 13 transportation transactions. The results of our testing indicate the separation of
controls over requesting freight and shipping services, setting up the obligation and approving
payment are working effectively. The transactions tested were appropriately pre-audited by
USTC before payment and report to GSA in the required quarterly reports. However, based on
the evidence available the auditor was unable to determine if the TSP selected, provided the best
value to the government. Individually, preferential treatment appears to exist to those TSP’s
with a proven past performance without consideration to other factors. For example, there was
no justification for instances when TSPs with a lower cost were not selected.

NAF is starting to track reasons why TSP’s decline providing the transportation service. NAF
indicated some lower priced TSP’s often decline providing the service because:
    • TSPs do not have trucks available or trucks are not working in the required areas at the
        time.
    • TSPs ask for more money than estimated in GSA's TMSS.
NAF is starting to track these reasons to share this information with GSA.

GSA’s regulations, Federal Management Regulation, subchapter D-Transportation, Part 102-
117.100 requires agencies to use the mode or individual transportation service provider that
provides the overall best value to the agency based on satisfactory services factors (i.e.
availability, estimated time in transit, past performance). In addition, agencies must consider
cost and demonstrate no preferential treatment to any TSP when arranging for transportation.
See Appendix I for business rules to be considered.

Since the investigation, NAF has implemented stronger controls over freight and shipping. We
believe NARA is on the right track in continuing to improve controls over transportation
services. However, NAF staff often selects TSP’s with proven satisfactory services but this
factor is not mutually exclusive as NARA should still consider other business rules in selecting a
TSP that provides the overall best value to the agency.

Recommendation 3

The Assistant Archivist of Administration should direct NAF to document reasons TSP’s
selected provide the government the best value. NAF should document reasons TSP’s with a
lower cost of the TSP selected were not selected. These reasons should be based on business
rules identified by GSA.

Management Response(s)

“We concur with all three recommendations as stated and will create a detailed action plan
stating how we will satisfy them.”




                                            Page 8
                         National Archives and Records Administration
                                                                      OIG Audit Report # 11-01


APPENDIX I
Federal Management Regulations


Part 102-117—Transportation Management

Subpart C—Business Rules to Consider Before Shipping Freight or Household Goods
§102-117.100—What business rules must I consider before acquiring transportation or
related services?
When acquiring transportation or related services you must:
(a) Use the mode or individual transportation service provider (TSP) that provides the overall
best value to the agency. For more information, see §§102-117.105 through 102-117.130;
(b) Demonstrate no preferential treatment to any TSP when arranging for transportation services
except on international shipments. Preference on international shipments must be given to United
States registered commercial vessels and aircraft;
(c) Ensure that small businesses receive equal opportunity to compete for all business they can
perform to the maximum extent possible, consistent with the agency’s interest (see 48 CFR part
19);
(d) Encourage minority-owned businesses and women-owned businesses, to compete for all
business they can perform to the maximum extent possible, consistent with the agency’s interest
(see 48 CFR part 19);
(e) Review the need for insurance. Generally, the Government is self-insured; however, there are
instances when the Government will purchase insurance coverage for Government property. An
example may be cargo insurance for international air cargo shipments to cover losses over those
allowed under the International Air Transport Association (IATA) or for ocean freight
shipments; and
(f) Consider the added requirements on international transportation found in subpart D of this
part.

§102-117.105—What does best value mean when routing a shipment?
Best value to your agency when routing a shipment means using the mode or individual TSP
providing the best combination of satisfactory service factors.

§102-117.110—What is satisfactory service?
You should consider the following factors in assessing whether a TSP offers satisfactory service:
(a) Availability and suitability of the TSP’s equipment;
(b) Adequacy of shipping and receiving facilities at origin and destination;
(c) Adequacy of pickup and/or delivery service;
(d) Availability of accessorial and special services;
(e) Estimated time in transit;
(f) Record of past performance of the TSP including accuracy of billing;
(g) Capability of warehouse equipment and storage space; and
(h) Experience of company, management, and personnel to perform the requirements.




                                            Page 9
                         National Archives and Records Administration
                                                                        OIG Audit Report # 11-01


§102-117.115—How do I calculate total delivery costs?
You calculate total delivery costs for a shipment by considering all costs related to the shipping
or receiving process, such as packing, blocking, bracing, drayage, loading and unloading, and
transporting.

§102-117.120—To what extent must I equally distribute orders for transportation and
related services among TSPs?
You must assure that small businesses, socially or economically disadvantaged and women-
owned TSPs have equal opportunity to provide the transportation or related services.

§102-117.125—How detailed must I describe property for shipment when communicating
to a TSP?
You must describe property in enough detail for the TSP to determine the type of equipment or
any special precautions necessary to move the shipment. Details might include weight, volume,
measurements, routing, hazardous cargo, or special handling designations.

§102-117.130—Must I select TSPs who use alternative fuels?
No, but, whenever possible, you are encouraged to select TSPs that use alternative fuel vehicles
and equipment, under policy in the Clean Air Act Amendments of 1990 (42 U.S.C. 7612) or the
Energy Policy Act of 1992 (42 U.S.C. 13212).




                                            Page 10
                         National Archives and Records Administration
                                                             OIG Audit Report # 11-01


APPENDIX II
Acronyms and Abbreviations


GAO       Government Accountability Office
GSA       General Services Administration
NAB       NARA’s Financial Services Division
NAF       NARA’s Facilities and personal Property Management Division
NARA      National Archives and Records Administration
NL        NARA’s Office of Presidential Libraries
NPOL      NARA’s Policy and Planning Staff
NR        NARA’s Office of Records Services – Washington D.C.
NW        NARA’s Office of Regional Records Services
OIG       Office of Inspector General
STOS      Standard Tender of Service
TMSS      Transportation Management Services System
TSP       Transportation Service Provider
USTC      Unites States Transportation Consultants




                                      Page 11
                   National Archives and Records Administration
                                                            OIG Audit Report # 11-01


APPENDIX III
Management’s Response to the Draft Report




                                     Page 12
                  National Archives and Records Administration
